Nos. 19-251 and 19-255

IN THE

Supreme Court of the United States
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA,
Attorney General of California,
THOMAS MORE LAW CENTER,

Petitioner,

v.
XAVIER BECERRA,
Attorney General of California,
Respondents.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 1st day of March, 2021, served
the Brief for The Electronic Frontier Foundation, The Freedom to Read Foundation,
The National Coalition Against Censorship, People United for Privacy Foundation,
Woodhull Freedom Foundation, and Defending Rights & Dissent as Amici Curiae in
Support of Petitioners upon each party separately represented in this proceeding by
causing three copies to be deposited, with first-class postage prepaid, addressed to
counsel of record at the addresses listed below:

John J. Bursch
Alliance Defending Freedom
440 First Street NW, Suite 600
Washington, DC 20001
jbursch@adflegal.org
616-450-4235
Counsel of Record for Petitioner
Derek L. Shaffer
Quinn Emanuel Urquhart & Sullivan, LLP
1300 I Street NW, Suite 900
Washington, DC 20005
derekshaffer@quinnemanuel.com
202-538-8000
Counsel of Record for Petitioner
Aimee Athena Feinberg
California Department of Justice
1300 I Street
Sacramento, CA 95814
Aimee.Feinberg@doj.ca.gov
916-210-6003
Counsel of Record for Respondent
Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov
202-514-2217
Counsel for the United States
In addition, pursuant to Supreme Court Rule 29.7, I have caused electronic
copies of all documents to be filed with the Clerk.
I further certify that all persons required to be served have been served.

2

____________________________
BRIAN T. BURGESS
GOODWIN PROCTER LLP
1900 N Street NW
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000
March 1, 2021

Counsel of Record for Amici Curiae

3

